                Department of Veterans Affairs
                Office of Inspector General



                  Office of Healthcare Inspections

Report No. 12-02186-227



                Healthcare Inspection 


  Nursing Care in the Community Living 

      Center for Spinal Cord Injury 

     Louis Stokes VA Medical Center 

             Cleveland, Ohio 





June 27, 2013

                      Washington, DC 20420
To Report Suspected Wrongdoing in VA Programs and Operations:
                    Telephone: 1-800-488-8244
                     E-Mail: vaoighotline@va.gov
                      Web site: www.va.gov/oig
Nursing Care in the Community Living Center for Spinal Cord Injury, Louis Stokes VAMC, Cleveland, OH



                                 Executive Summary 

The VA Office of Inspector General (OIG) Office of Healthcare Inspections conducted
an inspection to assess the merit of allegations regarding poor quality care and
management on the long-term care (LTC) spinal cord injury (SCI) unit at the Louis
Stokes VA Medical Center (facility) in Cleveland, OH. Specifically, the complainant
alleged that staff: documented poorly; neglected residents by frequently skipping
residents’ showers and bowel care; refused to make rounds; and ignored infection
control precautions by not wearing gloves to feed residents and leaving dirty linen
scattered over the unit. In addition, it was alleged that nurse managers did not: take
action in response to nursing staff’s misconduct; adequately staff the LTC SCI unit,
especially with experienced nurses; and assigned inexperienced nurses as charge
nurse. During the course of our inspection, we also reviewed call bell response time.

We found that staff nurses did not consistently document resident care as required,
leaving us unable to ascertain whether staff actively provided expected care. However,
several LTC SCI unit residents and non-unit staff interviewed reported positive
perceptions of care. We did not substantiate allegations regarding infection control
infractions.

Nurse managers acknowledged and were aware of staff not conducting resident care
rounds, unscheduled leave issues, and misconduct, but they had not taken effective
actions in response to these issues.

Overall, we found understaffing on all shifts — with significant shortages of up to five
employees on some day shifts. While some newer staff were periodically assigned
charge nurse responsibilities, we did not find evidence of resulting problems with patient
care or LTC SCI unit activities. However, float staff pulled from other units during
staffing shortages lacked the training and competencies to work with this complex and
challenging patient population.

We recommended that the Facility Director ensure that: staffing levels on the LTC SCI
unit are consistent with Veterans Health Administration requirements and the facility’s
SCI Master Nurse Staffing Plan, LTC SCI nursing staff consistently provide and
document resident care, LTC SCI nurse managers take action to investigate and
address conduct related issues, and float staff assigned to the LTC SCI unit have the
training and competencies required for the unit.




VA Office of Inspector General                                                                         i
Nursing Care in the Community Living Center for Spinal Cord Injury, Louis Stokes VAMC, Cleveland, OH


Comments: The Veterans Integrated Service Network and Facility Directors
concurred with our recommendations and provided an acceptable action plan. (See
Appendixes A and B, pages 14–17 for the Directors’ comments.) We will follow up on
the planned actions until they are completed.




                                                            JOHN D. DAIGH, JR., M.D.
                                                           Assistant Inspector General for
                                                             Healthcare Inspections




VA Office of Inspector General                                                                     ii
Nursing Care in the Community Living Center for Spinal Cord Injury, Louis Stokes VAMC, Cleveland, OH




                                                  Purpose 

The VA Office of Inspector General (OIG) Office of Healthcare Inspections conducted
an inspection to assess the merit of allegations regarding poor quality care and
management on the long-term care (LTC) spinal cord injury (SCI) unit at the Louis
Stokes VA Medical Center (facility) in Cleveland, OH.

                                              Background 

Facility
The facility is one of five facilities in Veterans Integrated Service Network (VISN) 10.
With 673 beds, the facility provides care through a medical complex at Wade Park
campus, 13 community-based outpatient clinics, and numerous community-based
contract nursing homes. The facility offers a full range of primary, secondary, and
tertiary care services to more than 105,000 veterans from 24 counties in Northeast
Ohio.

Through its 120 affiliation agreements, such as with Case Western Reserve University,
the facility trains more than 500 physician and dental residents and interns annually.
The facility supports research and is home to eight Centers of Excellence,1 including
SCI care. The SCI and Disorders Service functions as a hub to support several other
VA SCI primary care teams and oversees an acute SCI unit at the facility. In 2011, the
facility opened the 26-bed LTC SCI unit in the Capital Asset Realignment for Enhanced
Services (CARES)2 Bed Tower to serve as a specialized community living center (CLC)
for residents with SCI.

SCI
Spinal cord damage can result in loss of muscle control and/or strength, a condition
referred to as “paralysis” or “plegia” as well as loss of sensation. According to the VA
and Spinal Cord Injury Fact Sheet, dated January 2009, “Paraplegia results from injury
to the lower part of the spinal cord, causing paralysis of the lower part of the body,
including the [muscles that control] bowel and bladder. Tetraplegia (sometimes called
quadriplegia) results from injury to the spinal cord in the neck area, causing [more
extensive] paralysis to the lower body, upper body, and arms.”3


1
  http://www.hsrd.research.va.gov/centers/centers_of_excellence.cfm, Centers of Excellence are affiliated with VA
facilities, receive funding from VA, develop their own research agendas, and collaborate with local schools of public
health and universities.
2
  The CARES tower’s name derived from an independent commission called the Capital Asset Realignment for
Enhanced Services (CARES) Commission. Approved by the Secretary of VA in October 2004, the CARES report
called for consolidation of Brecksville and Wade Park campuses, and it included the construction of the new
CARES tower at Wade Park to accommodate the relocated Brecksville residents and patients.
3
  http://www1.va.gov/opa/publications/factsheets/fs_spinal_cord_injury.pdf, accessed January 21, 2013.


VA Office of Inspector General                                                                                     2
Nursing Care in the Community Living Center for Spinal Cord Injury, Louis Stokes VAMC, Cleveland, OH


Depending upon the severity and location of the injury, residents with SCI typically have
significantly reduced functional ability, and in some cases, the need for a machine to
assist with breathing. As a result, patients with SCI may be fully dependent upon others
for activities of daily living (ADL), such as grooming, bathing, dressing, personal
hygiene, toileting, eating, and mobility. While the ability to communicate may be
retained, loss of internal signals of bodily functions and movement give rise to physical
changes that increase the need for close observation. For example, autonomic
dysreflexia (AD) is a life threatening condition in the SCI population. AD often results
from a distended bowel or bladder that dangerously elevates blood pressure, which
must then be properly assessed and quickly treated.4

The emotional impact related to losses of independence and function in SCI residents
may be distressing to the resident, family, and friends. Over time, such losses may
contribute to feelings of depression, anxiety, fear, or anger, which can jeopardize
relationships with others and progress towards other emotional complications.

Allegations
OIG’s Hotline Division received allegations that the LTC SCI unit staff:
    Documented poorly.
    Neglected residents by frequently skipping their showers and bowel care.
    Ignored infection control (IC) precautions such as nurses not wearing gloves to
      feed residents and leaving dirty linen scattered over the unit.

It was also alleged that nurse managers (NM):
        Did not take action in response to nursing staff conduct problems including leave
         (time off) abuse, refusal to make rounds, and insubordination.
        Did not adequately staff the LTC SCI unit, especially with experienced nurses.
        Assigned inexperienced nurses as charge nurses.5

                                   Scope and Methodology

OIG inspectors conducted a site visit June 12–15, 2012. We interviewed unit staff,
residents, a resident’s family member, and other key personnel knowledgeable about
the care provided on the LTC SCI unit. We reviewed electronic health records (EHRs);
facility and Veterans Health Administration (VHA) policies, directives, and handbooks;
quality assurance documents; quality indicator reports, Minimum Data Sets (MDS)6 and

4
  Paralyzed Veterans of America/ Consortium for Spinal Cord Medicine, Acute Management of Autonomic
Dysfunction: Adults with Spinal Cord Injury Presenting to Health-care Facilities, July 2001, available at
http://www.pva.org/site/lookup.asp?c=ajIRK9NJLcJ2E&b=6423003, accessed January 21, 2013.
5
  A charge nurse is a staff nurse given responsibility to assign tasks to co-workers and oversee the unit’s operation
for the day.
6
  The MDS is part of the federally mandated process for clinical assessment of all residents in Medicare or Medicaid
certified nursing facilities. In addition to providing provides a core set of screening, clinical, and functional status


VA Office of Inspector General                                                                                        3
Nursing Care in the Community Living Center for Spinal Cord Injury, Louis Stokes VAMC, Cleveland, OH


resident advocate reports; staff training records; meeting minutes; and other relevant
documents. In addition to addressing the above allegation, we also reviewed call bell
response time, an important facet of nursing care, particularly on an SCI unit.

We conducted the inspection in accordance with Quality Standards for Inspection and
Evaluation published by the Council of the Inspectors General on Integrity and
Efficiency.

                                     Inspection Results 

Issue 1: Documentation and Resident Care

Documentation

We substantiated that the LTC SCI unit staff nurses did not consistently document
patient (resident) care.

VHA requires that staff assist any resident with impaired ADL, develop a plan of care to
address the level of assistance needed for the resident,7 and use the EHR to document
and authenticate each care event.8 The facility’s policy requires that staff assess the
resident’s pain level before and 1–2 hours after pain medication administration, and
document the assessment using the barcode medication administration (BCMA)
software program.9 This facility further expects that staff perform and document
residents’:
   Bowel care in the EHR
   Showers in the EHR
   General care in a weekly nursing note in the EHR
   ADL for each shift in the EHR
   Initial pain assessment (in the BCMA software)
   Response to pain medication administration,                          called    the    “1-2-hour      pain
    reassessment” (in the BCMA software)

In order to assess documentation and authentication of case events, we evaluated
compliance with the facility’s AD protocol, and we reviewed eight residents’ EHRs who,
over the past year, experienced an episode of AD and were treated on the unit or
transferred to the emergency department. Because AD can reoccur soon after an
episode, staff members are required to monitor the resident by checking blood pressure
(BP) every 30 minutes for two hours after an episode. We found that staff consistently
documented all required elements of initial AD assessment and intervention for all eight
residents. Two of the residents were transferred to the emergency department for


elements for residents, MDS can be used to determine per diem rates and measure quality of care. Source: 

https://www.ascp.com/articles/minimum-data-set-mds-resources, accessed 1/20/2013. 

7
  VHA Handbook 1142.01, Criteria and Standards for VA Community Living Center (CLC), August 13, 2008. 

8
  VHA Handbook 1907.01 Health Information Management and Health Records, September 19, 2012.

9
  MCM 119-001, Bar Code Medication Administration, July 30, 2010.



VA Office of Inspector General                                                                               4
Nursing Care in the Community Living Center for Spinal Cord Injury, Louis Stokes VAMC, Cleveland, OH


further post-AD care. However, of the six residents who remained on the unit, staff did
not document the required post-episode BPs in five of the resident EHRs.

To further assess documentation and authentication of case events, we reviewed 10
residents’ EHRs for 3 selected weeks during January–May 2012. We found varied
compliance with documentation requirements, as shown on the graph below. The
graph also includes findings from the facility’s internal review of the LTC SCI unit’s staff
BCMA documentation.

100%
             100%              99%     Louis B. Stokes VA Medical Center's LTC SCI Unit
                                               Staff Documentation Compliance

                                      (*Facility Data; other data from OIG review of 18 residents' EHRs)
 75%
                                              75%

                                                               67%


 50%

                                                                               45%



 25%


                                                                                                13%

  0%
          *Initial Pain   Bowel Care per   Showers/Bed    Nursing Notes   ADL notes ‐ one      *Pain
          Assessment         order            Bath        one per week       per shift    reassessment 2
                                                                                            hours after
                                                                                            medication

Although, we found that documentation of an initial pain assessment occurred 100
percent of the time, documentation of pain reassessment (within 2 hours after pain
medication was given) only occurred 13 percent of the time. Documentation of bowel
care occurred 99 percent of the time. Areas where documentation fell below a
75 percent threshold included weekly nursing assessments (minimal standard of at least
one nursing assessment per resident per week) and ADL notes for each shift.
Documentation is an essential tool to communicate management of resident care with
other healthcare providers.

However, some staff described documenting resident care as an ongoing issue
because they believed it to be “over-documentation and overkill,” placing a higher
priority on documentation than direct resident care. Staff also described documentation
challenges when residents repeatedly postponed their care or left the unit and did not


VA Office of Inspector General                                                                             5
Nursing Care in the Community Living Center for Spinal Cord Injury, Louis Stokes VAMC, Cleveland, OH


return in time for a scheduled assessment, such as the evaluation of a pain
medication’s effectiveness.

LTC SCI unit meeting minutes documented the NM’s reminders to staff to complete and
document assessments, resident showers, and other care. These reminders indicate
that NMs were aware of care and documentation issues. However, we found no
evidence that NMs took actions to address the problems.

Resident Care

We did not substantiate the allegation that staff neglected patients by frequently
skipping showers and bowel care.

As illustrated in the graph above, showering and/or bed bath documentation occurred
75 percent of the time. Additionally, to assess residents’ perception of whether
showering and/or bed bath care was provided, we interviewed 18 LTC SCI unit
residents.10 Seventeen residents reported that they were routinely offered showers
and/or bed baths. One resident’s family member and several staff, including the unit
housekeeper, described the LTC SCI unit’s staff care as “good,” and denied any neglect
of hygiene. The facility’s patient advocates reported visiting the LTC SCI unit regularly
and hearing very few complaints regarding the quality of care.

IC

We did not substantiate that staff ignored IC procedures regarding feeding and linen.

Local policy states that all personnel working with CLC residents will follow facility-wide
IC procedures.11 We conducted unannounced visits to the unit during mealtime and
other care activities and observed no IC violations with resident feeding or linens
scattered about the unit. The facility’s infection preventionist confirmed that gloves are
not normally required to feed residents when hand sanitization is practiced. We
interviewed staff and residents and heard no reports of IC infractions. The annual
training records showed that all LTC SCI unit staff were current with mandatory IC
training. We also found no evidence of issues from the facility’s recurring environment
of care reports or IC Committee meeting minutes.

Call Bell Response

Call bells are communication devices used by the residents to summon or alert LTC SCI
unit staff for assistance. Residents’ call bell devices vary to accommodate their
cognitive function and mobility of the upper extremities, such as an easy push-button or
a specialized “sip and puff” or straw-like device. Once the resident activates the call bell
system, the LTC SCI unit staff can answer the residents’ call at the unit nursing station
or at the resident’s bedside. The time from activation of the call bell by the resident to
the staff response is electronically recorded by the call bell system.

10
     Although the resident census was 26, not all patients were available or able to talk with us during our site visit.
11
     Facility’s CLC Infection Prevention and Control Policy, March 23, 2011.


VA Office of Inspector General                                                                                             6
Nursing Care in the Community Living Center for Spinal Cord Injury, Louis Stokes VAMC, Cleveland, OH


We reviewed electronic call bell response times over 6 days in May 2012, and the
following graph illustrates the results from “call placed” to the initial “place answer.”

                                               Call Bell Response Times
                       160
                                                    141
                       140   136


                       120                                                                     < 1 minute
   # of Observations




                       100                                                                     1 ‐ 1:59 minutes
                                                                            84                 2 ‐ 2:59 minutes
                       80                                                                      3 ‐ 3:59 minutes

                       60                                                                      4 ‐ 4:59 minutes
                                                                                               5 min or greater
                       40
                                                          22
                       20          14                          11
                                        7       6
                                            2 3                     3 1 6        5
                                                                                     1 0 0 1
                        0
                                   Day Shift          Evening Shift              Night Shift


The data showed that, across all shifts, staff answered 81 percent of call bells in less
than 1 minute and the majority (97 percent) of all call bells in less than 5 minutes.
However, staff took 5 minutes or longer to answer 13 (3 percent) calls. The longest call
bell response time found in our sample was 17.4 minutes.

Issue 2: Management Issues

We partially substantiated that NMs did not take effective action to investigate or follow
up on issues related to nursing staff conduct issues.

Time and Attendance Issues

We partially substantiated that some of the LTC SCI staff did not report for duty as
scheduled or use leave appropriately.

Nursing leadership instituted an 8-hour schedule of 10 days per pay period, which
typically necessitates split (versus consecutive) days off. Several LTC SCI unit nurses
had formally requested to change to an alternative 12-hour schedule of 7 days per pay
period, which they believed would allow them more days off to recover from the physical
and emotional demands of the job and mirror the schedule of other units in the facility.




VA Office of Inspector General                                                                                    7
Nursing Care in the Community Living Center for Spinal Cord Injury, Louis Stokes VAMC, Cleveland, OH


In our interviews, 13 of 16 LTC SCI unit staff members said that “call offs” (employee
taking unscheduled leave12) contributed to problems with staffing, morale, and resident
care. However, they asserted that only a few staff members abused leave in this way.
LTC SCI unit meeting minutes documented the NM’s reminders regarding unscheduled
leave. These reminders indicated that NMs were aware of unscheduled leave issues.
The Assistant NM reported working with a team of LTC SCI unit staff to address call off
issues.

The following factors may have contributed to these time and attendance issues.
        Eleven LTC SCI unit employees filed reports of injuries from November 2011–
         June 2012. These injuries included back strain from positioning residents, a foot
         injury from a wheelchair running over it, contusions, and head trauma from a
         ceiling lift failure.
        Some staff were newly hired and earned fewer hours of leave than others earn.
        Sick leave and family leave related to illness or surgery.
        The need for physical and emotional recovery from the demands of the work.

One employee we interviewed told us that some employees were granted time off but
were not charged leave. To investigate this, we compared 10 random weeks of
handwritten leave entries, including sick or annual leave and compensatory time used,
to the VA official time and attendance record. We found only minor discrepancies and
all were attributable to clerical errors by the timekeeper.

Some staff had perceptions that a LTC SCI/CLC manager abused leave because of
time sheet issues. However, we found that unofficial time sheets kept on the unit did
not accurately reflect this manager’s time and attendance. The nursing administration
office maintains official time sheets for managers. When we compared the manager’s
official time and attendance record with the unit time sheet, we found discrepancies that
incorrectly made it appear that the manager in question was not charged for leave
taken. In fact, the manager had been correctly charged for leave taken.

Resident Care Rounds

LTC SCI NMs knew staff did not consistently conduct resident care rounds but did not
take action to address the problem.

A change-of-shift report is a meeting between nursing staff members ending their tour of
duty and those starting their tours of duty. Resident medical condition and care needs
are discussed during these meetings. Local practice, as identified in nursing staff
meeting minutes, requires the charge nurse or designee going off duty conduct
“resident care rounds” with the charge nurse or designee coming on duty after the
change-of-shift report. Resident care rounds are conducted to inspect the condition of
each room and the resident if present in the room. The November 2011 and April 2012
LTC SCI unit staff meeting minutes document that the NMs were aware that staff were

12
  Unscheduled leave or “call off” is an unscheduled absence from work, which was not requested and approved in
advance, such as sick leave or emergency annual leave.


VA Office of Inspector General                                                                                   8
Nursing Care in the Community Living Center for Spinal Cord Injury, Louis Stokes VAMC, Cleveland, OH


not conducting change of shift rounds. However, NMs could not provide evidence to
support any actions taken to address this issue

Staff Conduct

Managers knew that staff actions and conduct were not always consistent with VHA
expectations but did not take effective action in response to misconduct.

VHA requires that employees “…maintain the highest standards of honesty, integrity,
impartiality, conduct, and effectiveness. Whenever an employee's performance of duty
or professional competence is determined to be unsatisfactory or when an employee's
professional or personal conduct is not satisfactory, prompt and appropriate disciplinary
or major adverse action, or other corrective action will be taken.”13

A NM’s staff meeting minutes document that the NM was aware of conduct issues and
that the NM directed staff to comply with the LTC SCI unit’s conduct rules and
expectations as shown by the following examples:

       “Behavior-It is totally unacceptable for staff to be loud, aggressive, or
       threatening to other [sic] patients or staff members. If another employee acts
       out and creates a hostile work environment for others, the VA police need to be
       notified immediately. Call the nursing supervisor. […] Then afterwards you get
       on the computer and type up a Report of Contact to document the event
       accurately and timely.”

       “If you don’t want to care for SCI patients, I need a request for transfer to
       another area. There will be no exceptions to this. Failure to properly care for
       our SCI patients will result in progressive discipline.”

       “Equipment-Already our new medication carts have been damaged… [sic] KEY
       BOARDS AND HOOKS. Our new wound cart and the cart [name] had donated
       are also damaged. This looks purposeful. If the identity of person or persons
       responsible is revealed, they may be charged with destruction of government
       property. I don’t understand why anyone would do this. If you are that angry
       and/or unhappy-go see a therapist or leave. This is not a prison.”

VHA outlines progressive discipline and actions for facilities to take to address
misconduct.

An Assistant NM stated that she had verbally referred one staff member to the
Employee Assistance Program for anger management issues. However, facility
managers were unable to provide us with any documentation to support this referral.




13
     VA Handbook 5021/7, Part II, Chapter I, Employee/Management Relations, November 25, 2011.


VA Office of Inspector General                                                                     9
Nursing Care in the Community Living Center for Spinal Cord Injury, Louis Stokes VAMC, Cleveland, OH


LTC SCI Unit Nurse Staffing

We substantiated allegations that nursing staff on the LTC SCI unit were at times
understaffed and other times overstaffed.

VHA’s SCI & Disorders Handbook identifies the minimum number of unit nursing staff
based upon the number of employees.14 VHA also requires that NMs determine staffing
levels using the Full Time Equivalent Calculator Tool. This tool includes a required
minimum replacement factor of at least 1.2, which accounts for annual leave, sick leave,
holiday leave, education offerings, and other administrative activities.15 We found that
the facility approved staffing levels of 42 full time employee equivalents, consistent with
the SCI & Disorders Handbook. However, at the time of our inspection, the LTC SCI
unit had seven staff vacancies according to the facility’s September 2011 and May 2012
SCI Staffing and Bed Survey Reports.

When the SCI LTC unit schedule indicated insufficient staffing or employees took
unscheduled time off, the NM used voluntary or mandatory overtime, along with staff
from other areas of the facility (called “float staff”) to make up the needed staff hours.

In the graphs below, we compared the facility’s SCI Master Nurse Staffing Plan
(benchmark) with the LTC SCI actual staffing across the three 8-hour shifts for
April 17–May 17, 2012. The actual staffing included a combination of LTC SCI staffing,
overtime hours, and float staff.




14
     VHA Handbook 1176.02, Spinal Cord Injury and Disorders (SCI&D) Extended Care Services, June 13, 2007.
15
     VHA Directive 2010-034, Staffing Methodology for VHA Nursing Personnel, July 19, 2010.


VA Office of Inspector General                                                                               10
Nursing Care in the Community Living Center for Spinal Cord Injury, Louis Stokes VAMC, Cleveland, OH




Facility data shows that during the period reviewed:
         April overtime usage was 175 hours (equating to approximately 22 8-hour shifts)
         May overtime usage was 486 hours(equating to approximately 61 8-hour shifts)
         May float staff usage was 116 hours (equating to approximately 15 8-hour shifts)
Despite the use of overtime and float staff, these comparison graphs demonstrate
variations in staffing over the 31 days reviewed with a number of days where the
number of staff needed did not meet the approved staffing levels for the LTC SCI unit.16
The graph below summarizes the above data to demonstrate the percentage of time
that the LTC SCI unit staffing was below, above, and in compliance with threshold
levels.




16
     Day shift is 7:30 a.m.–4 p.m., evening shift is 3:30 p.m.–12 midnight, and night shift is midnight–8:00 a.m.


VA Office of Inspector General                                                                                      11
Nursing Care in the Community Living Center for Spinal Cord Injury, Louis Stokes VAMC, Cleveland, OH



                     LTC SCI Staffing Schedule April 17–May 17, 2012
                                                                       74%
             65%

                                              48%
                                                            45%

                     29%
                                                                                  26%


                                6%                    6%
                                                                                           0%

                   Day Shift                    Evening Shift                Night Shift

                               Understaffed         Overstaffed   Fully staffed

Overall, there was a preponderance of understaffing, with significant shortages of up to
five employees on some days. Such understaffing compromises the ability of remaining
staff to provide care. We recognize that employee use of unscheduled leave, employee
special accommodation (such as light duty), and other variables can affect staffing.
However, we could not determine from the available information whether there were
abuses by management or staff in the overtime or unscheduled leave seen on the
actual schedule. These scheduling issues are worthy of further investigation at the local
level.

Inexperienced Nursing Staff

We substantiated the allegation that NMs operated the LTC SCI unit with some
inexperienced nursing staff, including assignments of charge nurse.

VHA and The Joint Commission do not specifically address expectations or
requirements regarding “experience” in this setting. However, they do require that the
facility assess and document an employee’s ability to carry out assigned responsibilities
safely, competently, and timely at the completion of orientation. SCI resident care
demands special nursing skills to manage complex ventilator, bowel, bladder, and
psychological care, and to recognize and treat AD. We selected and reviewed the
training records for 10 LTC SCI unit nursing staff members and confirmed that all had
appropriate training, including initial and ongoing competencies.

We were told that several staff members were new to the nursing profession, caring for
LTC SCI residents. LTC SCI unit staff meeting minutes reflected discussions regarding
“experienced staff helping newer staff.” We found that while some newer staff were
periodically assigned charge nurse responsibilities, we did not find evidence of resulting
problems with patient care or LTC SCI unit activities.




VA Office of Inspector General                                                                    12
Nursing Care in the Community Living Center for Spinal Cord Injury, Louis Stokes VAMC, Cleveland, OH


We also found that some float staff assigned to the LTC SCI unit were not experienced
in working with the unique needs of SCI residents. An LTC manager explained that
float staff had general nursing competencies but often did not have specialized SCI
training and competencies. Therefore, the NMs assign the float staff to provide only
“basic care rather than the specific care.” The facility uses float staff during periods of
short staffing to provide basic care to the LTC SCI residents; and while they alleviate
some of the resident care responsibilities, this practice necessarily leaves all specialized
care to the unit’s regular staff.

                                        Conclusions

We found that the LTC SCI unit’s nurses did not consistently document post-medication
pain reassessments, nursing assessments, and ADL notes. While staff answered the
majority of resident call bells within 5 minutes or less, there is potential for improvement.

Reasons for these and other issues, such as “call-offs,” appear to be related to frequent,
and occasionally significant, staffing shortages, staff fatigue from working overtime
hours, and the use of float staff who lack the training and competencies to work with this
complex and challenging patient population. Further, unchecked staff misconduct likely
negatively influences the unit’s milieu. Importantly, we found that NMs did not take
effective actions to follow up on issues related to nursing staff conduct issues.

                                  Recommendations 

Recommendation 1. We recommended that the Facility Director ensure that the
staffing levels on the Long-Term Care Spinal Cord Injury unit be consistent with
Veterans Health Administration’s requirements and the facility’s spinal cord injury
Master Nurse Staffing Plan.

Recommendation 2. We recommended that the Facility Director ensure that Long-
Term Care Spinal Cord Injury nursing staff consistently provide and document resident
care.

Recommendation 3. We recommended that the Facility Director ensure that Long-
Term Care Spinal Cord Injury nurse managers take action to investigate and address
staff conduct related issues.

Recommendation 4. We recommended that the Facility Director ensure that float staff
assigned to the Long-Term Care Spinal Cord Injury unit have the training and
competencies required for the unit.




VA Office of Inspector General                                                                    13
Nursing Care in the Community Living Center for Spinal Cord Injury, Louis Stokes VAMC, Cleveland, OH
                                                                                        Appendix A
                            VISN Director Comments


               Department of
               Veterans Affairs                                     Memorandum


   Date:       May 22, 2013

   From:       Director, VA Healthcare System of Ohio (10N10)

   Subject: Healthcare Inspection – Nursing Care in the Community Living
            Center for Spinal Cord Injury, Louis Stokes VA Medical Center,
            Cleveland, OH

   To:         Assistant Inspector General for Healthcare Inspections (54)

               1. Thank you for this thorough review and opportunity to
                  improve our processes.

               2. Please see the Cleveland VAMC response to Draft Report
                  of the Healthcare Inspection of the Louis Stokes
                  Cleveland VA Medical Center, Cleveland, Ohio.

               3. If you have any questions or need additional information,
                  please contact Jane Johnson, Deputy Quality Management
                  Officer, VISN 10 at (513) 247-4631.


               (original signed by:)
               Jack G. Hetrick
               Network Director




VA Office of Inspector General                                                                    14
Nursing Care in the Community Living Center for Spinal Cord Injury, Louis Stokes VAMC, Cleveland, OH
                                                                                        Appendix B
                         Facility Director Comments


               Department of
               Veterans Affairs                                     Memorandum


   Date:       May 22, 2013

   From:       Director Louis Stokes Cleveland VA Medical Center (541/00)

   Subject: 	 Healthcare Inspection – Nursing Care in the Community Living
               Center for Spinal Cord Injury, Louis Stokes VA Medical Center,
               Cleveland, OH

   To:	        Director, VA Healthcare System of Ohio (10N10)

               1. Thank you for the thorough review of the Nursing Care in
                  the Community Living Center for Spinal Cord Injury at
                  the Louis Stokes VA Medical Center, Cleveland, Ohio.
                  Immediate actions have been taken to address the
                  recommendations.

               2. Please see the Cleveland VAMC response to Draft Report
                  of the Healthcare Inspection of the Louis Stokes
                  Cleveland VA Medical Center, Cleveland, Ohio.

               3. If you have any questions or need additional information,
                  please contact Kristen Guadalupe, PhD, RN Chief,
                  Quality Management at (216) 791-3800 extension 3456.


               (original signed by:)
               Susan M. Fuehrer




VA Office of Inspector General                                                                    15
Nursing Care in the Community Living Center for Spinal Cord Injury, Louis Stokes VAMC, Cleveland, OH



                         Comments to OIG’s Report
The following Director’s comments are submitted in response to the recommendations
in the OIG report:

OIG Recommendations

Recommendation 1. We recommended that the Facility Director ensure that the
staffing levels on the long-term care spinal cord injury unit be consistent with Veterans
Health Administration’s requirements and the facility’s spinal cord injury Master Nurse
Staffing Plan.

Concur

Target date for completion: Completed May 17, 2013

Facility response: Long Term Care (LTC) Spinal Cord Injury (SCI) unit staffing levels
monitored via a daily review of census and staff assignment sheets by the SCI-LTC
Associate Chief Nurse and Nurse Manager. The Nursing Service FTEE tracker is
maintained by the Nurse Recruiter. Staffing vacancies and recruitment consistently
reviewed by and discussed with the Associate Director of Patient Care Services and
Medical Center Director. Current staffing on the LTC SCI unit includes 20 Registered
Nurses (RN), 14 Licensed Practical Nurses (LPNs), and 8 Nursing Assistants (NA). An
NA was selected on May 12, 2013 to bring the total NA FTEE to nine. A newly hired RN
is scheduled to come on board in June 2013. There are currently no vacancies and
staffing patterns are consistent with VHA requirements and facility Master Nurse
Staffing Plan.

Recommendation 2. We recommended that the Facility Director ensure that long-term
care spinal cord injury nursing staff consistently provide and document resident care

Concur

Target completion date of audit-August 30, 2013. Implementation of this
recommendation is still in progress.

Facility response: The LTC SCI unit staff was educated during centralized orientation on
documentation requirements specific to the CLC. Documentation requirements include
the RN weekly Assessment, Activities of Daily Living (ADL) shift note, and
documentation of pain assessment/reassessment. Quality Management (QM) will
conduct a weekly medical record review of documentation of nursing care provided to
Wade Cares Tower Level B (WCTB) patients. The monthly QM audit will begin June 1,
2013 through August 30, 2013. The denominator will equal the total number of LTC SCI
patients on WCTB. The numerator will equal the number of LTC SCI patients with
timely documentation of nursing care in RN weekly notes and ADL shift notes. Audit
results will be reviewed for trends associated with specific individuals or shifts. Audit
results with action plans for all deficiencies will be reported and monitored monthly by
QM at the Executive Leadership Board (ELB) until 90% for 90-days. The Nursing


VA Office of Inspector General                                                                    16
Nursing Care in the Community Living Center for Spinal Cord Injury, Louis Stokes VAMC, Cleveland, OH


Performance Improvement (PI) Coordinator will continue monthly monitoring of
randomly sampled medical records following 90% for 90-days. Results of the QM and
Nursing PI Coordinator review will be shared by the LTC SCI Associate Chief Nurse and
Nurse Manager with staff at the CLC PI Council meeting and WCTB staff meetings.

Recommendation 3. We recommended that the Facility Director ensure that LTC SCI
nurse managers take action to investigate and address conduct related issues.

Concur

Target date for completion: Completed-May 17, 2013. Conduct and disciplinary related
issues being addressed promptly per policy.

Facility response: The LTC SCI Associate Chief Nurse reviewed Medical Center Policy
(MCP) 005-005 entitled “Discipline and Adverse Actions” with the LTC SCI Nurse
Manager. The LTC SCI Associate Chief Nurse and Nurse Manager meet weekly to
discuss staff issues related to conduct or performance. The weekly discussion also
provides a forum for positive recognition of staff going above and beyond to provide
safe, quality care to Veterans on the LTC SCI unit. Since 2012, the LTC SCI Nurse
Manager has investigated four issues related to conduct and performance.
Unscheduled leave continues to present a challenge in maintaining staffing levels.
The Nurse Manager works closely on a weekly basis with Employee Labor
Management to review staff conduct and performance issues on the LTC SCI unit. In
the spirit of continuing to foster a cohesive team environment on the LTC SCI unit, the
Medical Center Director approved training by John Fuller, VHA Office of Diversity for
June or July 2013.

Recommendation 4. We recommended that the Facility Director ensure that float staff
assigned to the long-term care spinal cord injury unit have the training and
competencies required for the unit.

Concur

Target completion date-June 28, 2013. Implementation of this recommendation is in
progress.

Facility response: To ensure safe, competent care on the LTC SCI unit a decision to
gradually admit long-term SCI patients to WCTB was made prior to opening the unit,
thus gradually increasing the census of this specialized population. The decision to
phase in slowly the SCI WCTB admissions over a 12-month period allowed time for
competency evaluation of permanent staff. All 2013 required population specific
competencies for permanent LTC SCI staff are complete. Population-specific training of
float pool staff is in process. Currently, there is training underway for four additional
float pool staff to be fully cross-trained.




VA Office of Inspector General                                                                    17
Nursing Care in the Community Living Center for Spinal Cord Injury, Louis Stokes VAMC, Cleveland, OH
                                                                                        Appendix C

                 OIG Contact and Staff Acknowledgments
Contact                  For more information about this report, please contact the OIG at
                         (202) 461-4720.
Contributors             Donald Braman, RN (Team Leader)
                         Melanie Oppat, MEd, LDN (Project Leader)
                         Margie Chapin, RT (R), JD
                         Nathan Fong, CPA, CFE
                         Terri Julian, Ph.D.
                         Alan Mallinger, M.D., Physician Consultant
                         Nelson Miranda, LCSW
                         Joanne Wasko, LCSW




VA Office of Inspector General                                                                    18
Nursing Care in the Community Living Center for Spinal Cord Injury, Louis Stokes VAMC, Cleveland, OH
                                                                                        Appendix E



                                  Report Distribution
VA Distribution

Office of the Secretary
Veterans Health Administration
Assistant Secretaries
General Counsel
Director, VA Healthcare System of Ohio (10N10)
Director, Louis Stokes Cleveland VA Medical Center (541/00)

Non-VA Distribution

House Committee on Veterans’ Affairs
House Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
House Committee on Oversight and Government Reform
Senate Committee on Veterans’ Affairs
Senate Appropriations Subcommittee on Military Construction, Veterans Affairs, and
Senate Committee on Homeland Security and Governmental Affairs
Related Agencies
National Veterans Service Organizations
Government Accountability Office
Office of Management and Budget
U.S. Senate: Sherrod Brown, Rob Portman
U.S. House of Representatives: Marcia L. Fudge



This report is available on our web site at www.va.gov/oig




VA Office of Inspector General                                                                    19
